             United States Department of Justice
                  Office of the Inspector General
                                    Audit Division




Audit Report


IMMIGRATION AND
 NATURALIZATION
     SERVICE
  INSTITUTIONAL
     REMOVAL
    PROGRAM




 September 2002

     02-41
              IMMIGRATION AND NATURALIZATION SERVICE
                  INSTITUTIONAL REMOVAL PROGRAM

                              EXECUTIVE SUMMARY

       The Institutional Removal Program (IRP) is a national program that
aims to (1) identify removable criminal aliens in federal, state, and local
correctional facilities, (2) ensure that they are not released into the
community, and (3) remove them from the United States upon completion of
their sentences. Aliens convicted of certain offenses or unlawfully present in
the United States are subject to deportation. The IRP process ideally begins
with the identification of potentially deportable foreign-born inmates as they
enter the correctional system and culminates in a hearing before an
immigration judge at a designated hearing site within the federal, state, or
local prison system. Upon completion of their sentences, deportable aliens
are then released into INS custody for immediate removal. The IRP is a
cooperative effort of the Immigration and Naturalization Service (INS), the
Executive Office for Immigration Review (EOIR), and participating federal,
state, and local correctional agencies. According to INS statistics, of the
71,063 criminal aliens the INS removed in FY 2001, 30,002 were removed
via the IRP.

       Our audit focused primarily on the IRP process at the state and local
level because of the inherent difficulties faced by the INS in coordinating
with non-federal agencies. We assessed whether the INS: (1) effectively
managed the IRP and, in particular, how well the INS handled the impact of
legislative changes enacted in 1996 on the IRP workload; (2) identified all
foreign-born inmates in state or local custody; and whether deportable
criminal aliens not identified by the INS went on to commit other crimes
after being released from incarceration; and (3) incurred detention costs due
to failures in the IRP process and the causes underlying those failures. To
achieve these objectives, we reviewed applicable laws, regulations, manuals,
and memoranda; interviewed INS personnel responsible for the IRP; and
tested the IRP process by examining a nationwide judgmentally selected
sample of A-files of removable criminal aliens. We also observed and
analyzed the IRP process in two states and in two counties within each of
those states. We reviewed 545 judgmentally selected files of inmates
identified as foreign-born by state or local officials at the California
Department of Corrections (DOC), the Florida DOC, and local jail facilities in
Fresno County, California; Kern County, California; Broward County, Florida;
                            1
and Dade County, Florida.

      1
         For the California DOC and the Florida DOC, we reviewed 172 and 196 inmate files,
respectively. As for the counties, we reviewed 75 total foreign-born inmate files for
California (Fresno and Kern counties) and 102 for Florida (Dade and Broward counties).


                                           -i-
       We found that the INS has not effectively managed the IRP. The INS
has yet to determine the nationwide population of foreign-born inmates,
particularly at the county level. Without this information, the INS cannot
properly quantify the resources the IRP needs to fully identify and process all
deportable inmates. Even if the INS were unable to fully fund the needs of
the IRP, the INS should know the universe of foreign-born inmates to
identify shortfalls in coverage and be able to assess the associated risks,
which it currently is unable to do.

        The INS has not been able to keep pace with the increases in the IRP
workload resulting from sweeping changes in immigration law brought about
by the Illegal Immigration Reform and Immigrant Responsibility Act (IIRIRA)
of 1996 and the Anti-Terrorism and Effective Death Penalty Act of 1996.
These laws expanded the definition of aggravated felony and eliminated
relief for legal resident aliens convicted of aggravated felonies, dramatically
increasing the number of criminal aliens eligible for removal, and thus the
IRP workload. Despite the foreseeable impact of the legislation, we found
little evidence to indicate that management had taken steps to address the
increased workload, particularly at the county level. Indeed, the number of
criminal aliens deported actually decreased in FY 2001, albeit slightly, from
FY 2000 totals, even as the total prison population grew by 1.6 percent
during the same period. Staffing levels for the IRP were not increased. In
fact, staffing levels decreased because of INS-wide chronic vacancies in the
immigration agent (IA) position, the backbone of the IRP.

      Exacerbating the problems of stagnant resources, an increasing
workload, and chronic vacancies in IRP positions, INS employees assigned to
the IRP may be redirected, at district management’s discretion, to any one
of several competing priorities. We found that immigration agents assigned
to the IRP were often detailed to assist with other program activities, such
as employer sanctions, anti-smuggling, and fraud. While the reallocation of
resources is not unique to the IRP, it is particularly crippling to IRP
operations given the districts’ difficulty in maintaining staffing levels.

      We found IRP coverage (i.e. interviews of foreign-born inmates to
determine deportability) at the county level minimal to nonexistent. We
observed this first hand at the county facilities we visited in California and
Florida. INS officials acknowledged that the lack of coverage at the county
level was widespread. Although state coverage in FY 1999 and FY 2000 was
adequate, we found IRP coverage in California, which ranks first in the
number of foreign-born inmates held in state custody, in decline in FY 2001.
The INS failed to interview, and therefore identify, 19 percent of foreign-
born inmates at state prison intake facilities throughout California in FY
2001. Initial figures for the first quarter of FY 2002 indicate that the
coverage is worsening, resulting in backlogs of foreign-born inmates


                                     - ii -
requiring interviews. The declining coverage at the state prisons is due, in
part, to the fact that California has done little to help the INS streamline the
IRP process beyond the initial program enhancements implemented in 1995.
As a result, INS agents must maintain an active presence at 11 intake
facilities dispersed throughout the state over an area roughly 120,000
square miles in size. In contrast, Texas funnels all foreign-born inmates
through one intake facility. Chronic vacancies in the INS immigration agent
position have further exacerbated INS efforts in maintaining coverage of
state facilities in California.

       The whole IRP process is predicated on the cooperation of the
institutions in which criminal aliens are incarcerated. Without that
cooperation, the IRP cannot function effectively. Interestingly, states and
counties throughout the country have received hundreds of millions in
                                                                       2
funding annually through the State Criminal Alien Assistance Program
(SCAAP), yet there are no provisions in the program requiring state and
county recipients to cooperate with the INS in its removal efforts.

        We found that the INS did not always timely process IRP cases, and as
a result, has been forced to detain criminal aliens released from
incarceration into INS custody to complete deportation proceedings. In
order to determine the causes for IRP-related detention costs, we reviewed a
judgmental sample of 151 A-files of criminal aliens in INS custody, which
included criminal aliens released from federal, state, and local correctional
facilities throughout the country. In addition, we interviewed INS officials at
all levels, as well as officials at the EOIR, the General Accounting Office, and
the Department of State. For our sample of 151 files, we identified a total of
$2.3 million in IRP-related detention costs, of which $1.1 million was
attributable to failures in the IRP process within the INS’s control, and $1.2
was related to factors beyond the INS’s immediate control. Failures in the
IRP process included (1) incomplete or inadequate casework; (2) untimely
requests for travel documents; (3) failure to accommodate for delays in the
hearing process; (4) failure to timely initiate and complete IRP casework;
and (5) use of inappropriate removal procedures. Factors beyond the INS’s
control included (1) countries that, through design or incompetence, delay
the issuance of travel documents; and (2) countries that refuse to take back
their citizens. INS-wide, the detention costs associated with these
breakdowns in the process may be significant. According to INS statistics,
the average daily population for criminal aliens held in INS custody was over
10,000 in FY 2001, accounting for over half of the INS’s available bed space.
The INS indicated that the overwhelming majority of these criminal aliens

      2
        SCAAP is a Department of Justice grant program established to help state and local
governments defray the cost of incarcerating criminal aliens. The Bureau of Justice
Assistance (BJA) administers the program. According to BJA statistics, SCAAP funds for FY
2000 and FY 2001 totaled $1.1 billion.


                                          - iii -
were federal, state, or local inmates that were released into INS custody for
removal. Under ideal conditions, an effectively operating IRP would preclude
the need for INS detention in such instances. Based on this unaudited data,
total IRP-related detention costs could run as high as $200 million annually.


     To address the problems cited in the report, we recommend that the
INS Commissioner take the following action:

•   Determine (a) the total foreign-born inmate population at the county
    level, as well as the state and federal levels, (b) the resources required
    for the IRP to fully cover the population, and (c) the risks involved with
    not providing full coverage.

•   Strengthen IRP program management by specifically accounting for
    program expenses and dedicating resources to the program.

•   Request that the Office of Justice Programs change current SCAAP grant
    provisions to require, as a grant condition, the full cooperation of state
    and local governments in the INS’s efforts to process and deport
    incarcerated criminal aliens.

•   Fully develop plans currently under consideration for an expanded
    detention enforcement officer position to replace the vacancy-ridden
    immigration agent position.

•   Develop clear, consistent, and standardized procedures for A-file
    documentation in the IRP process to enhance efficiency.

•   Ensure that INS officers make use of streamlined procedures for removal
    as authorized under the 1996 Act to minimize detention costs.

•   Develop and implement, in coordination with the Department of State, a
    Memorandum of Understanding outlining the role of liaisons between the
    INS and the Department of State. This should include the delineation of
    responsibilities with respect to the timely issuance of travel documents.

      Our audit objectives, scope, and methodology appear in Appendix I.
The details of our work are contained in the Findings and Recommendations
section.




                                      - iv -
                       INSTITUTIONAL REMOVAL PROGRAM
                                  TABLE OF CONTENTS


                                                                                             Page
INTRODUCTION .................................................................................1
   Background................................................................................... 1
   Selection of State and County Facilities ............................................. 2
   Legislative History.......................................................................... 3
   Prior Reports ................................................................................. 4
FINDINGS AND RECOMMENDATIONS.................................................6

1. THE INS HAS NOT EFFECTIVELY MANAGED THE IRP......................6
   Impact of the IIRIRA and the AEDPA on IRP Workload......................... 6
   Universe of Incarcerated Criminal Aliens Unknown .............................. 7
   IRP Presence in Select County Facilities Minimal at Best ...................... 8
   IRP Coverage Declining at State Prisons in California......................... 13
   Workload versus Resources ........................................................... 14
   Recruitment and Retention ............................................................ 15
   Redirecting IRP Resources ............................................................. 16
   Federal Funds Could Be Used to Gain IRP Cooperation....................... 17
   Conclusion .................................................................................. 19
   Recommendations........................................................................ 20

2. THE INS INCURS MILLIONS ANNUALLY TO DETAIN CRIMINAL
    ALIENS DUE TO FAILURES IN THE IRP PROCESS .......................21
   Analysis of Detention Costs ........................................................... 21
   Factors Within the INS’s Control..................................................... 24
   Factors Beyond the INS’s Direct Control .......................................... 26
   Conclusion .................................................................................. 29
   Recommendations........................................................................ 30
SCHEDULE OF DOLLAR-RELATED FINDINGS ....................................31
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......32
APPENDIX I: AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY ......33
APPENDIX II: CRIMINAL ALIENS: THE REMOVAL PROCESS ............35
APPENDIX III: ANALYSIS OF PRE AND POST IMMIGRATION LAWS .43
APPENDIX IV: AUDITEE RESPONSE .................................................46
APPENDIX V: ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE REPORT ..................................................................... 50
            IMMIGRATION AND NATURALIZATION SERVICE
                INSTITUTIONAL REMOVAL PROGRAM

                               INTRODUCTION

       The mission of the Immigration and Naturalization Service (INS)
includes the detection, apprehension, and removal of aliens unlawfully
present in the United States, particularly those involved in criminal activity.
The goal of the Institutional Removal Program (IRP) is to enhance the INS’s
efforts at identifying removable criminal aliens in federal, state, and local
correctional facilities, and initiate deportation proceedings to effect their
timely removal.

Background

       In 1988, the INS and the Executive Office for Immigration Review
(EOIR) established the Institutional Removal Program, then known as the
Institutional Hearing Program (IHP). Under the IRP, attorneys, immigration
judges, and incarcerated aliens are brought together in a system that is
designed to expedite the removal process. The program objectives are to
complete the judicial and administrative review proceedings prior to
completion of aliens’ sentences, thereby eliminating the need for further
detention by the INS. Based on the most current information available, the
IRP operates at 13 hearing sites at Federal Bureau of Prisons (BOP) facilities;
83 state hearing sites at facilities in 49 states, the District of Columbia, and
Puerto Rico; and 4 hearing sites at county facilities in California, Florida, and
Massachusetts.

       Removal proceedings for incarcerated criminal aliens processed
through the IRP begin with the facilities’ identification of foreign-born
inmates upon their entry into federal, state or county incarceration.
Generally, INS district offices are provided with periodic listings of foreign-
born inmates from federal and state correctional institutions within their
jurisdiction. Such reporting by federal correctional institutions is required;
the INS depends on voluntary cooperation from state and local facilities. At
the county level, INS district offices must proactively check local booking
records of inmates identified as foreign-born for potentially deportable
criminal aliens.

      INS agents assigned to the IRP, usually immigration agents, conduct
on-site interviews with inmates identified by the facility as foreign-born to
determine their legal status and deportability. The agents also perform
database checks, including but not limited to the INS’s Deportable Alien




                                      -1-
                  3                                                4
Control System (DACS), the INS’s Central Index System (CIS), and the
Federal Bureau of Investigation’s National Crime Information Center (NCIC)
database, and obtain copies of conviction records and other necessary
information to support a removal order. Once an inmate is determined
removable, the INS agent files a Notice to Appear (NTA), at which point the
Executive Office for Immigration Review (EOIR) is brought into the process
culminating in a deportation hearing before an immigration judge, ideally at
a designated hearing site within the federal, state, or local prison system.
Upon completion of their sentences, deportable aliens are then released into
INS custody for immediate removal.

Selection of State and County Facilities

       Most of the nation’s known foreign-born inmate population (about 80
percent according to INS statistics) is concentrated in seven states:
California, New York, Texas, Florida, Arizona, New Jersey, and Washington.
We selected California and Florida to perform our site work based on
preliminary audit work indicating that coverage (i.e. interviews of foreign-
born inmates to determine deportability) by the INS was not as
comprehensive in these two states as it was in the other large states for
geographic, demographic, and political reasons. As of June 30, 2001,
California and Florida ranked first and fourth, respectively, in the number of
foreign-born inmates held in state and federal custody, accounting for nearly
half of the nation’s known population of foreign-born inmates.

       In order to assess the effectiveness of the IRP at the county level, we
selected Fresno and Kern counties in California, and Broward and Dade
counties in Florida for review. Fresno and Kern counties were selected
because they are rural counties with intense alien involvement in the
surrounding agricultural environment and are sufficiently removed from
major INS district offices to make significant and sustained INS coverage
difficult. Broward and Dade counties in Florida, conversely, were selected
because they are large metropolitan areas with large foreign-born
populations and INS offices in close proximity. Local correctional facilities,
such as those in Broward, Dade, Fresno, and Kern counties, represent a
potentially vast, but largely unknown element with regard to the size of the
nation’s incarcerated criminal alien population.

       3
         The DACS captures deportable alien data; tracks aliens who are arrested, detained,
or formally removed from the country; produces deportation forms and reports; and makes
the information accessible online to INS deportation officers and other INS users.
       4
         The CIS is the INS’s main automated information system, serving both the INS’s
INS benefits and law enforcement functions. The CIS contains data on lawful permanent
residents, naturalized citizens, violators of immigration laws, aliens with Employment
Authorization Document information, and others for whom the INS has opened files or in
whom it has a special interest.


                                           -2-
Legislative History

       Legislative efforts to provide for a more expeditious removal process
for criminal aliens first appeared in the Immigration Reform and Control Act
of 1986 (IRCA). Specifically, Section 242(i) of the IRCA provided that:

      In the case of an alien who is convicted of an offense,
      which makes the alien subject to deportation, the Attorney
      General shall begin any deportation proceedings as
      expeditiously as possible after the date of the conviction.

      The Anti-Drug Abuse Act of 1988 introduced the term “aggravated
felony” into immigration law. Defined in Section 101(a) (43) of the
Immigration and Nationality Act (INA), aggravated felonies were initially
confined to crimes of violence and those involving illicit trafficking in
controlled substances. The term and its legal implications had a profound
impact on the INS’s workload and detention needs, as the INS was
mandated to detain criminal aliens convicted of aggravated felonies from the
time they come into INS custody until they receive final orders of removal.

      The Immigration Act of 1990 (IMMACT 90), clearly defined the scope
of INS responsibility to include criminal aliens at the local level under Section
242A (a), which states that:

      The Attorney General shall provide for the availability of special
      deportation proceedings at certain federal, state and local
      correctional facilities for the aliens convicted of aggravated
      felonies…in a manner which eliminates the need for additional
      detention at any processing center of the INS in a manner which
      assures expeditious deportation, where warranted, following the
      end of the aliens incarceration for the underlying sentence.

       The Immigration and Nationality Technical Correction Act of 1994
(INTCA) expanded the definition of aggravated felonies to include lesser
crimes such as fraud, burglary, and theft. This trend continued with the
Illegal Immigration Reform and Immigrant Responsibility Act (IIRIRA) and
the Anti-Terrorism and Effective Death Penalty Act (AEPDA), both enacted in
1996, and both of which brought sweeping changes to the immigration laws.
The enactment of the IIRIRA and the AEDPA dramatically expanded the
definition of removable aliens, mostly involving criminal aliens serving time
at the county level.

      The definition of aggravated felony was expanded under the AEPDA to
include such crimes as commercial bribery, counterfeiting, forgery, perjury
and other crimes, while the IIRIRA expanded the definition of aggravated
felonies still further by reducing the sentence threshold for certain crimes.


                                      -3-
More significantly, the AEDPA eliminated relief for legal resident aliens who
had been convicted of an aggravated felony, further expanding the pool of
deportable criminal aliens.

       In addition, the IIRIRA established streamlined procedures for the
removal of certain classes of aliens without a formal hearing process: (1)
administrative removal allowed the INS to remove criminal aliens convicted
of specific classes of offenses without a hearing before an immigration
judge; and (2) reinstatement of prior removal order eliminated all EOIR
reviews for criminal aliens who were previously deported and subsequently
convicted of a crime after re-entry. With these supplemental options, the
deportation process now provides for removal without an immigration
                                           5
hearing as two of three possible options. In recognition of the fact that the
removal of criminal aliens was no longer predicated in all instances on a
formal hearing process, as well as the fact that the short time served in
county facilities was not conducive to on-site hearings, the name of the
program was changed from the Institutional Hearing Program to the
Institutional Removal Program.

Prior Reports

      The OIG previously reviewed IRP operations at the state level in its
Audit of INS Select Enforcement Activities, Report No. 95-30, September 26,
1995. The report identified substantial backlogs in the number of foreign-
born inmates in state prisons requiring interviews and processing. The
California state IRP was identified as the most problematic of the state
operations, accounting for over 60 percent of the total backlogs. In addition,
the OIG identified over $9 million in funds-to-better use related to detention
costs incurred due to inefficiencies in the California state IRP operation. The
INS, in response, implemented enhancements to the state IRP operations to
ensure that all foreign-born inmates were identified and timely processed if
determined to be removable.

      The General Accounting Office (GAO) reviewed IRP operations in its
audit of Criminal Aliens: INS’ Efforts to Remove Imprisoned Aliens Continue
to Need Improvement, Report No. GAO/GGD-99-3, October 1998. In
addition, the GAO released testimonial Report No. GAO/T-GGD-99-47,
February 25, 1999, Criminal Aliens: INS’s Efforts to Identify and Remove
Imprisoned Aliens Continue to Need Improvement, and testimonial Report
No. GAO/T-GGD-99-148, Immigration and Naturalization INS: Overview of
Management and Program Challenges, July 29, 1999. The audit and
subsequent testimonial reports highlighted the following areas of concern:

       5
         Generally, those qualifying for a removal hearing before an immigration judge
include criminal aliens who are Legal Permanent Residents and illegal aliens convicted of an
aggravated felony with a sentence of less than one year.


                                           -4-
•   The INS failed to identify all deportable criminal aliens including
    aggravated felons:

    The GAO found that, at the state level, the INS failed to identify all
    aggravated felons. There were two reasons for the failure: (1) the
    backlogs of foreign-born inmates requiring interviews and
    processing, as previously reported by the OIG, had not been
    addressed; and (2) the INS had not allocated the sufficient
    resources to address the increasing numbers of foreign-born
    inmates entering the system.

•   The INS did not complete the IRP process for about half of the
    criminal aliens before they were released by state facilities:

    The GAO found that the INS’s inability to fully process criminal
    aliens through the IRP resulted in additional detention costs, as
    reported in the prior OIG report.

•   The INS needed a Workload Analysis Model and greater managerial
    direction in goal setting:

    The GAO found that INS management had not taken the steps
    necessary to determine the level of resources required to
    adequately staff the IRP. Further, there was no systematic basis for
    determining performance results that could be accomplished with
    various resource levels. The GAO stated that the INS lacked
    specific operational goals and formal communication.

•   High attrition undercut the IRP’s effectiveness:

    The GAO found that the loss of expertise due to high attrition rates
    in the IRP hampered the program’s effectiveness.




                                -5-
                  FINDINGS AND RECOMMENDATIONS

      1.   THE INS HAS NOT EFFECTIVELY MANAGED THE IRP

           While IRP coverage in Florida state prisons was adequate, the
           INS did not identify all foreign-born inmates in California state
           prisons, and the INS presence at county facilities in both
           California and Florida was inadequate. INS officials confirmed
           the lack of coverage at county facilities. This deficiency was
           based, in part, on the INS’s failure to effectively manage the
           increases in IRP workload that resulted from sweeping changes
           brought about by the Immigration Reform and Immigrant
           Responsibility Act (IIRIRA) and the Anti-Terrorism and Effective
           Death Penalty Act (AEDPA) in 1996. Despite the foreseeable
           impact of the changes in immigration law, IRP staffing levels
           have remained relatively static, and in effect have decreased
           because of chronic vacancies in IRP positions. As a result,
           many foreign-born inmates who are deportable aliens pass
           through county facilities virtually undetected. Based on our
           review of a sample of foreign-born inmates released from
           county facilities in June 1999, many inmates not identified by
           the INS as potentially deportable prior to release went on to
           commit other crimes in the community, including drug
           possession, spousal abuse, and child molestation. In addition,
           the INS has yet to fully assess the scope of the incarcerated
           criminal alien problem, particularly at the county level, and as
           such is unable to fully quantify IRP resource needs.

Impact of the IIRIRA and the AEDPA on IRP Workload

      Changes in immigration law enacted in 1996 dramatically altered the
IRP landscape. The overall effect of the legislation was to make eligible for
deportation whole classes of aliens previously not deportable, most notably
aliens with legal status serving time for lesser crimes at the county level.
Two changes have increased the number of deportable aliens at the county
level: (1) the legislation lowered the threshold for deportation for crimes of
moral turpitude from actual sentences of one year or more, to crimes that
have potential sentences of one year or more (i.e. actual sentences gave
way to possible sentences), and (2) the definition of an aggravated felony
was greatly expanded, while the sentencing minimum for some crimes was
reduced from five years to one year, and the majority of crimes had no
minimum. As a result, the county jails became a large source of potentially
deportable candidates. Appendix III details how the parameters of
deportation were expanded as a result of the IIRIRA.




                                     -6-
      According to the Bureau of Justice Statistics (BJS), as of June 30,
2001, approximately 630,000 incarcerated inmates were in local jails,
representing one third of the nation’s criminal population. It should be
noted that this represents a snapshot in time and does not reflect the larger
turnover in populations at the county level due to the relatively short
sentences.

       Officials at all levels, both in the INS and the EOIR indicated that the
1996 legislation had a profound effect on the IRP’s workload. However, we
found little evidence to indicate that management had taken steps to
address the increased workload, particularly at the county level. Indeed, the
number of criminal aliens deported actually decreased in FY 2001, albeit
slightly, from FY 2000 totals, even as the total prison population grew by 1.6
percent during the same period.

       We found that, to date, no INS-wide analysis has been performed to
determine the nature and scope of the IRP’s workload. While the INS
performed a resource and staffing evaluation prior to 1996, the scope was
limited, pertaining to one specific INS region. Another analysis, specific to
one particular sub-office was conducted in 1999, but focused only on front-
end processing, neglecting the downstream impact that an increased IRP
output would have in other areas, such as district counsel and the Detention
and Removal (D&R) division. In addition, both analyses focused only on
state and federal facilities, leaving out the vast populations of potentially
deportable foreign-born inmates passing through the nation’s county jails.
The INS has developed a workload model for IRP activities at the federal and
state levels using BJS figures. However, applying the model at the county
level has been problematic because the BJS provides “snapshot” figures that
do not reflect the rapid turnover of inmate populations at the county level.
In comparison, federal and state populations are fairly static.

Universe of Incarcerated Criminal Aliens Unknown

       INS management cannot make an informed assessment of the
resources required for the IRP if it does not know the scope of the problem.
While the INS does track foreign-born inmate populations at the federal and
state level, it does not maintain INS-wide statistics on foreign-born inmate
populations at the county level. Unlike measuring and predicting illegal
immigration, with its inherent unknown factors, the population of criminal
aliens in American prisons is both finite and determinable.

      We attempted to quantify the impact of the 1996 legislation on IRP
workload at the county level. We were unable to do so nationwide because
of the dearth of information available at both the INS and the counties we
reviewed. However, we did review foreign-born inmate files at select county



                                     -7-
jails in order to evaluate the potential scope of IRP-related activities at the
county level.

IRP Presence in Select County Facilities Minimal at Best

       Unlike at the federal and state levels where the INS has access to the
institutions’ databases or is provided listings of foreign-born inmates on a
routine basis, the IRP at the county level requires on-site jail checks by INS
agents to identify foreign-born inmates as they enter the system. We found
that the INS was not making a consistent or comprehensive effort to check
local jail booking records on a daily basis for deportable criminal aliens at the
local facilities we reviewed in the counties of Fresno, California; Kern,
California; Broward, Florida; and Dade, Florida. As part of the booking
process, incoming inmates are usually asked to provide their country of
birth. This is the INS’s first source in identifying potentially deportable
criminal aliens. INS officials conceded that IRP coverage at the county level
is deficient and attributed the cause to an insufficient number of immigration
agents available to provide coverage for the large number of foreign-born
inmates who pass through the jails. On an annual basis, the population of
foreign-born inmates at the counties we reviewed (excepting Broward)
ranged from 6,408 to 43,920 inmates, as indicated by the average monthly
intake shown in the table below.

                 AVERAGE MONTHLY INTAKE OF FOREIGN-BORN
                  CRIMINALS AT SELECT COUNTY FACILITIES

                  County, State               1999         2000       2001

             Fresno, CA                            638         600       534

             Kern, CA                              579         639       742

             Dade, FL                           2,563        2,431     3,660

             Broward, FL                     Unknown     Unknown     Unknown
                        Source: Respective Sheriff's Departments


      While we were able to obtain limited information from Broward
County, neither the INS Miami district office nor Broward County officials
could provide us with historical data on the foreign-born population in
Broward County jails. However, INS officials in Miami believed the foreign-
born population in Broward to be significant.

Recidivism of Foreign-Born Inmates at County Level

     The most immediate risk associated with breakdowns in the IRP
process is that an unidentified deportable criminal alien will be released back


                                           -8-
into the community and will commit further, possibly violent, crimes. In
order to verify the occurrence and nature of recidivism among potential IRP
candidates that the INS is not reaching, we reviewed a sample of files of
inmates identified by the facilities as foreign-born released from the above-
listed county facilities in June 1999. We selected June 1999 to allow
adequate passage of time to test for recidivism. In nearly all instances,
there was no evidence that the INS had interviewed the foreign-born
                                                          6
inmates to determine their legal status prior to release. As acknowledged
by INS officials at the exit conference, this stems from the fact that the INS
lacks a mechanism to track the interviews it performs and the related
outcomes. We performed subsequent NCIC, DACS, and CIS database
checks, but were unable to determine how many of the foreign-born inmates
were deportable due to the lack of information available. Similarly, we were
unable to verify if any of the foreign-born inmates were United States
citizens.

Fresno County, California

       According to the Fresno County Sheriff’s Department, a total of 724
foreign-born inmates were released from Fresno County facilities in
June 1999. We reviewed documentation for 30 of the 724 and determined
that the INS did not interview 29 of them. In addition, we found that at
least 5 of the 30 foreign-born inmates committed aggravated felonies after
their release in June 1999 and were re-arrested on a subsequent charge, as
shown in the table below:




6
   Local law enforcement has neither the training nor the access to INS databases to
determine a foreign-born inmate’s legal status. Further, while the terms of SCAAP grants
require state and local officials to submit the names of inmates identified as foreign-born to
the OJP for potential reimbursement of incarceration costs, they are not required to notify
the INS.


                                            -9-
                    RECIDIVISM IN FRESNO COUNTY, CALIFORNIA

    Identified by
     County as
    Foreign-Born              Original Charge                  Subsequent Charge
       but not
    Interviewed
       by INS
       Case 1        Manufacture of controlled             Possession of a controlled
                     substance                             substance
        Case 2       Battery resulting in serious injury   Possession of a controlled
                                                           substance
        Case 3       Corporal injury to spouse             Spousal abuse
        Case 4       Possession for manufacture of a       Drug conspiracy
                     controlled substance
        Case 5       Sexual battery                        Lewd & lascivious acts with
                                                           a minor
     Source: Fresno County Sheriff's Department & INS DACS and CIS databases.


Kern County, California

       According to the Kern County Sheriff’s Department, a total of 505
foreign-born inmates were released from Kern County facilities in June 1999.
We reviewed documentation for 45 of the 505 and determined that the INS
failed to interview all 45 inmates, 26 of whom were arrested for subsequent
crimes after their release. The subsequent crimes ranged from violation of
probation, to the more serious offenses of spousal abuse, child abuse, and
assault, as represented in the table below:




                                          - 10 -
                    RECIDIVISM IN KERN COUNTY, CALFORNIA

     Identified by
      County as
   Foreign-Born but             Original Charge                 Subsequent Charge
   not Interviewed
        by INS
        Case 1          Lewd & lascivious acts with a        Continuous sexual abuse of
                        child under 14 years old             a child under 14 years old

        Case 2          Battery of a former spouse           Battery of a former spouse

        Case 3          Possession of controlled             Possession of a controlled
                        substance                            substance & trespassing

        Case 4          Willful cruelty to a child           Willful cruelty to a child

        Case 5          Inflict corporal injury to spouse    Spousal abuse

        Case 6          Assault with a deadly weapon         Assault with a deadly
                                                             weapon
      Source: Kern County Sheriff's Department & INS Bakersfield Database



Dade County, Florida

       According to the Dade County Sheriff’s Department, a total of 2,576
foreign-born inmates were released from Dade County facilities in June
1999. We reviewed documentation for 40 of the 2,576, but were unable to
verify, due to lack of adequate records, whether the INS interviewed any of
them. We did note that at least 8 went on to commit subsequent crimes
after their release, as shown in the table below:




                                           - 11 -
                     RECIDIVISM IN DADE COUNTY, FLORIDA

      Identified by
                                 Original Charge          Subsequent Charge
   County as Foreign-
      Born but not
   Interviewed by INS
         Case 1            Battery                      Aggravated assault
                                                                         rd
         Case 2            Grand theft                  Grand theft (3        Degree)

                           Possession of a controlled   Cocaine trafficking
         Case 3
                           substance

         Case 4            Grand theft                  Battery

         Case 5            Cocaine possession           Cocaine possession

         Case 6            Burglary/theft               Burglary/theft

         Case 7            Grand theft                  Grand theft

                                                        Battery/Possession of a
         Case 8            Marijuana possession
                                                        controlled substance
     Source: Dade County Sheriff's Department



Broward County, Florida

      According to the Broward County Sheriff’s Department, a total of 629
foreign-born inmates were released from Broward County facilities in June
1999. We reviewed documentation for 62 of the 629. Neither the INS nor
Broward County officials could verify whether any of the foreign-born
inmates had been interviewed or identified by the INS as deportable criminal
aliens. Because of the lack of information available, we were able to obtain
criminal history for only 17 of the 62, 8 of whom we verified were re-
arrested on subsequent charges, as shown in the table below:




                                            - 12 -
                       RECIDIVISM IN BROWARD COUNTY, FLORIDA

     Identified by County
                                       Original Charge             Subsequent Charge
     as Foreign-Born but
      not Interviewed by
              INS
              Case 1           Loitering                          Marijuana possession

              Case 2           Fraud/Larceny                      Fraud/Larceny

                                                                  Possession of drug
              Case 3           Drug possession
                                                                  paraphernalia

              Case 4           Trespassing                        Selling/Manufacturing
                                                                  a controlled substance

              Case 5           Battery                            Battery

              Case 6           Possession of drug                 Possession of drug
                               paraphernalia                      paraphernalia

              Case 7           Disorderly conduct                 Possession of drug
                                                                  paraphernalia

              Case 8           Cocaine distribution               Cocaine distribution
       Source: Broward County Sheriff's Department



IRP Coverage Declining at State Prisons in California

      While coverage at the county level was the greatest challenge facing
the IRP, there was also evidence that the coverage at state prisons in
California, which ranks first in the number of foreign-born inmates in state
custody, was in decline. During FY 1999 and FY 2000, INS coverage of state
intake facilities was at nearly 100 percent (i.e. INS officers interviewed
nearly all facility-identified foreign-born inmates as they entered the
system). However, the California DOC provided statistics showing that in FY
2001, INS coverage at state intake facilities had fallen. According to the
California DOC, the INS had failed to interview 2,464 (19 percent) of the
                                                                      7
13,208 foreign-born inmates that entered the system in FY 2001. Recent
data indicates that coverage at the state intake facilities has continued to
drop. Through December 2001, the INS failed to interview 1,364 (45
percent) of the 3,015 foreign-born inmates at the state intake facilities. The

7
  While INS officials did not attribute a specific cause for the significant drop in coverage,
we believe the reasons to be a combination of logistics, chronic vacancies, and diversion of
IRP resources.


                                             - 13 -
trend appears to be continuing, as we learned that an INS sub-office
recently informed the California DOC that it did not have enough
immigration agents to cover the 80-to-100 foreign-born inmates received
daily at a key intake site. Instead, the INS office has had to prioritize
interviews based on the earliest release date of the inmates. If the trend at
the California state level is not reversed, the INS will soon be faced with
significant backlogs of unidentified foreign-born inmates, reminiscent of
those identified in the prior OIG report. Criminal aliens not identified as
deportable by the INS will, in all probability, be released back into the
community upon completion of their sentences.

Workload versus Resources

       INS officials at the Fresno and Bakersfield sub-offices stated that IRP
coverage was not possible at the county level due to the limited number of
investigative resources available to cover a wide geographic area. The
Fresno sub-office, for instance, is responsible for six counties within
California’s Central Valley, including five state prison intake facilities, as well
as numerous jails and juvenile facilities within each of the six counties.
Generally, IRP resources are dedicated first to state and federal institutions,
then to county facilities if staff is available. In terms of sheer numbers,
however, the 520 foreign-born inmates received at the Fresno sub-office’s 5
state intake sites in FY 2001 was less than 10 percent of the 6,000 plus
foreign-born inmates booked into the Fresno county jail during the same
period.

       The Bakersfield sub-office is responsible for covering the three state
prison intake facilities within its jurisdiction, as well as three Federal
Correctional Institute sites, seven Community Correctional Facilities, and five
Central Receiving Facilities including the Kern County Jail. Chronic vacancies
at the Bakersfield sub-office were particularly alarming given that the sub-
office processes the highest number of foreign-born inmates in California,
averaging about 10,000 annually. As an example of the scope of the
problem, in FY 2001 the Bakersfield sub-office devoted the majority of their
IRP resources, about 20 positions, to interviewing nearly 6,700 foreign-born
inmates that entered the 3 state intake facilities in its jurisdiction. During
that same period, approximately 8,700 foreign-born inmates were booked
into the Kern County Jail, the overwhelming majority of whom passed
through the facility virtually undetected by the INS.

      The gap between IRP resources and workload is dramatic and is not
limited to California. In Dade County, Florida alone, nearly 44,000 foreign-
born inmates were booked into the county jail in FY 2001, according to the
Dade County Sheriff’s Department. This was nearly twice the intake of
foreign-born inmates in the entire California State prison system, the largest
of the state IRP operations, during the same time period. Figures for


                                      - 14 -
Broward County were unknown, but are believed to be significant, according
to INS officials. In the Miami district office, there were 32 IA positions
dedicated to IRP activities in FY 2001, only 11 of which were filled.

      We interviewed INS district officials in California and Florida and asked
them to provide an estimate of staffing levels needed to fully cover the IRP
at federal, state, and local facilities within their respective jurisdictions. The
results are shown in the table below:



                      ANALYSIS OF ESTIMATED IRP RESOURCE NEEDS
                                                                Percentage        Percentage
                                                                Authorized            On
                                      On
                                                                    To             Board To
        State      Authorized        Board       Required
                                                                 Required          Required


      California            185           140            375             49%                37%


      Florida                 43           25            168             26%                15%


      TOTAL                 228           165            543             42%                30%
       Source: INS district officials in Miami, San Diego, Los Angeles, and San Francisco



Recruitment and Retention

       Exacerbating the limited resources dedicated to IRP are the chronic
vacancies existing in the immigration agent position. INS immigration
agents are involved at the front end of the process, performing initial
interviews and subsequent casework for IRP removals, and are the backbone
of the IRP. The INS's lack of IRP coverage at state prisons in California and
at counties nationwide rests in part on the recruitment and retention of INS
employees assigned to IRP-related duties. The immigration agent position
has suffered in recent years from high turnover and low morale, arising from
it being a low-graded position with no room for advancement beyond the
General Schedule (GS)-9 level, and from the tedious nature of the job itself
(i.e. conducting routine interviews, on a daily basis, in a prison setting). This
is not a new issue. The GAO cited high attrition rates in the immigration
agent position as a concern with regard to INS’s management of the IRP in
their testimony before the Judiciary Committee in the House of
Representatives in July 1997, Report No. GAO/T-GGD-97-154. Specifically
they identified an attrition rate of 30-percent in the immigration agent
position, which was significantly higher than the 11-percent average attrition
rate for INS staff agency wide. We noted an average vacancy rate of 32


                                             - 15 -
percent in the immigration agent position at the locations we visited. INS
officials in the D&R division stated that they have studied the issue and are
attempting to address it in conjunction with the INS’s transition of the IRP
from its Investigations division to the D&R division. Essentially, the INS’s
plan is to incorporate traditional immigration agent responsibilities into an
enhanced detention enforcement officer (DEO) position. The new DEO
position would offer more varied work experience, and provide opportunities
for advancement to a second-line supervisor position at the GS-12 level.

Redirecting IRP Resources

       The understaffing of the IRP is made more acute by competing
priorities that often deprive the program of what little staff it has. INS
district directors have the discretion to redirect resources allocated to IRP
activities for other activities. Particularly after the events of September 11,
2001, IRP staffing has been redirected to other duties, but even under
normal circumstances the program has been susceptible to “raids” from
competing priorities. We found that immigration agents assigned to the IRP
were often detailed to assist with other program activities, such as employer
sanctions, anti-smuggling, and fraud. While it is understandable that local
management should have some discretion in managing its resources, given
the enormity of the criminal alien problem and the chronic staffing shortages
plaguing the IRP this reallocation of scarce resources threatens to further
undermine the integrity of the program.

       The crux of the problem lies in the lack of a clear program focus, part
of which stems from the IRP being functionally spread over several divisions,
with the bulk of the work being split between the D&R and the Investigations
divisions. As a result, from the management and planning standpoint, the
IRP has suffered from the lack of a program perspective, which has led to
the IRP being managed in piecemeal fashion, as a collection of collateral
duties, rather than as a comprehensive program. Basic information, such as
the amount of money spent on the IRP was not readily available. INS
officials tried to “back into” the figure by determining the number of
immigration agent positions currently filled. However, the result was largely
meaningless because, as previously discussed, immigration agents are often
reallocated to other activities; and it did not take into account the other
resources devoted to the IRP, such as investigators, detention enforcement
officers, clerks, and district counsel.

       A similar problem existed with the INS’s Asylum program, which is
dedicated to processing asylum applications. INS management addressed
the problem by establishing a separate Asylum office. Implemented in
1990, the Asylum program now has its own budget for resources that are
not subject to redirection by district management. In order to better protect
IRP resources from reallocation, INS management should consider


                                    - 16 -
establishing an IRP office separate from both the Investigations and D&R
divisions, similar to what was done for the Asylum program. At the exit
conference, INS officials agreed with our assessment of the problem, but
disagreed with the solution, conveying their concerns that establishing the
IRP as a functional island, isolated from the regular deportation process
would ultimately be counterproductive. They stated that they had taken
initial steps to strengthen program management, including the creation of
account classification codes for the IRP in order to track IRP-related
            8
expenses. In addition, the D&R division had created and filled an IRP
Director position.

Federal Funds Could Be Used to Gain IRP Cooperation

       Inadequate IRP coverage can also be attributed to a lack of
cooperation on the part of some state and local governments, despite the
fact that they may receive substantial funding from the federal government
in the form of State Criminal Alien Assistance Program (SCAAP) grants.
States and counties with correctional facilities that incarcerate or detain, for
72 hours or longer, criminal aliens accused or convicted of crimes are eligible
to apply for federal assistance through the SCAAP. According to the Bureau
                            9                                  10
of Justice Assistance (BJA) , which administers the program , SCAAP
funding in fiscal years 2000 and 2001 totaled $1.1 billion. The table that
follows shows the amount of SCAAP funds received by each of the sites we
visited:




       8
         The implementation of account classification codes will allow the INS to track future
IRP expenditures. It does not negate the fact that INS management was unable to provide
us with comprehensive program expenditures for the period reviewed.
       9
         SCAAP is authorized and governed by the provisions of the Omnibus Appropriations
Act, Public Law 106-113, Division B, Section 1000(a); Immigration and Nationality Act 8
U.S.C. 1252, Section 242 as amended, and Title 11, Subtitle C, Section 20301 Violent Crime
Control and Law Enforcement Act of 1994, Public Law 103-322.
       10
          Under the proposed 2003 budget, SCAAP would be eliminated as a specific
program, and would be consolidated along with several other grant programs into the
Justice Assistance Grant Program (JAGP).


                                           - 17 -
                                SCAAP FUNDS RECEIVED
        Site Reviewed              FY 2000             FY 2001             Total
     State of CA                 $ 195,851,999        $ 158,326,999   $   354,178,998
     State of FL                     26,664,699         23,090,599         49,755,298
     Fresno, CA                       2,221,380          2,071,339          4,292,719
     Kern, CA                           825,427          1,368,339          2,193,766
     Broward, FL                        258,442          1,914,969          2,173,411
     Dade, FL                           519,229            775,212          1,294,441
     Total for sites visited        226,341,176        187,547,457        413,888,633

     Total Nationwide            $ 585,000,000        $ 551,000,000   $1,136,000,000
      Source: Bureau of Justice Assistance



      SCAAP grants are unconditional, requiring no reciprocation on the part
of state and local governments in return for reimbursement from the federal
government for the costs of incarcerating deportable criminal aliens. As
such, state and local governments receive funding from SCAAP grants
regardless of whether the INS gains custody of those incarcerated foreign-
born inmates deemed deportable.

        The State of California received over $350 million in federal funding in
FY 2000 and FY 2001 for incarcerating criminal aliens, yet we found that
California has offered the INS little cooperation in streamlining the IRP
process. Indeed, both the INS and the EOIR characterized California as
being among the least cooperative states with regard to improving the IRP
process. California currently processes foreign-born inmates in the state
system at all 11 intake facilities located throughout the state in an area
roughly 120,000 square miles in size. In order to ensure that all foreign-
born inmates are interviewed upon entry into the system, the INS must
make regular visits to each of these facilities, some of which are located
hours from the nearest INS district or sub-office. While other large states,
such as Texas and New York, have consolidated the number of intake
facilities at which foreign-born inmates are processed, California’s intake
system remains a logistical challenge to local INS offices.

       Although the Immigration Act of 1990 required each state receiving
certain law enforcement grant funds to provide the INS with criminal history
information on aliens convicted of violating state laws, there are no similar
provisions in the SCAAP grants requiring the recipient’s cooperation with
local INS offices as a condition of receiving funds. In our judgment, SCAAP


                                             - 18 -
grants should be based not only upon the incarceration of criminal aliens,
but also on their removal from the country.

      An argument against requiring reciprocation on the part of SCAAP
recipients is that SCAAP funds represent a reimbursement of costs borne by
state and local governments to incarcerate illegal aliens due to the federal
government’s failure to enforce its immigration laws, and therefore grant
conditions would be inappropriate. However, according to INS officials we
interviewed, about 30 percent of the total foreign-born state and local
inmate population is legally in the United States. Applying that theory to the
$414 million of SCAAP funds received by the sites we reviewed in FY 2000
and FY 2001, roughly $124 million represents reimbursement for the costs of
incarcerating criminal aliens who entered the country legally, i.e. not as a
result of the federal government’s failure to enforce its immigration laws.
We believe, and INS officials concurred, that providing SCAAP monies to
state and local governments unconditionally is an opportunity lost with
regard to enhancing the effectiveness of the IRP.

Conclusion

      The IRP’s mandate requires the identification of deportable criminal
aliens at federal, state, and county facilities. At the county facilities we
reviewed, which processed annually from over 6,000 foreign-born inmates at
the low-end, to nearly 44,000 foreign-born inmates at the high-end, we
found IRP coverage to be minimal at best. INS officials acknowledged the
lack of IRP coverage, which allows thousands of potentially deportable
foreign-born inmates to pass through county jails undetected. We found
that many foreign-born inmates not identified by the INS as potentially
deportable went on to commit other crimes after being released into the
community, including drug possession, spousal abuse, and child molestation.
At the state level, the INS failed to interview 19 percent of foreign-born
inmates entering the California state prison system in 2001. In 2002, the
coverage appears to be worsening, indicating a resurgence of backlogs of
foreign-born inmates requiring interviews.

      The INS has not taken fundamental steps to assess: (1) the scope of
the foreign-born inmate population; (2) the resources required to identify
and process through the IRP all foreign-born inmates deemed deportable;
and (3) the risks associated with not doing so. The INS has not been able to
keep pace with the increases in IRP workload resulting from sweeping
changes in immigration law enacted in 1996 that made deportable whole
classes of criminal aliens previously eligible to remain in the United States.
Most significantly affected by these changes was the workload at the county
level. While the INS may lack the resources necessary to handle the
workload, management should, at a minimum, know the resources required



                                    - 19 -
to achieve full coverage and be aware of the risks associated with not
achieving that goal.

       The problems with the recruitment and retention of personnel in IRP
positions, coupled with the reallocation of scarce resources away from the
IRP, undermine the integrity of the program. Given the enormity of the
foreign-born inmate population and the chronic staffing shortages plaguing
the program, the INS should ensure that IRP resources are not diverted and
should consider establishing a discrete IRP budget and office with dedicated
positions and resources.

       Finally, the full cooperation of state and local governments is essential
to an effective and efficient IRP operation. To the extent that such
cooperation is not forthcoming, the federal government should use whatever
leverage it has to obtain that cooperation. Toward that end, we recommend
that the INS propose revisions to the SCAAP grant requirements that would
require, as a grant condition, the recipients’ full cooperation in INS's removal
efforts with regard to incarcerated criminal aliens. In our judgment,
applying such conditions to these grants is appropriate and will enhance the
efficiency of the IRP.


Recommendations

We recommend that the INS Commissioner:

1.    Determine: (a) the total foreign-born inmate population at the county
      level, as well as the state and federal levels; (b) the resources
      required to cover the population through the IRP; and (c) the risks
      involved in not providing full coverage.

2.    Strengthen IRP program management by specifically accounting for
      program expenses and dedicating sufficient resources to it.

3.    Fully develop and implement plans currently under consideration for
      an expanded detention enforcement officer position to replace the
      vacancy-ridden immigration agent position.

4.    Request that the Office of Justice Programs implement changes to
      current SCAAP grant requirements that would require, as a grant
      condition, the full cooperation of state and local governments in INS’s
      efforts to process and deport incarcerated criminal aliens.




                                     - 20 -
       2.   THE INS INCURS MILLIONS ANNUALLY TO DETAIN
            CRIMINAL ALIENS DUE TO FAILURES IN THE IRP
            PROCESS

            The INS did not always timely process IRP cases, and as a
            result, was forced to detain criminal aliens released into INS
            custody from federal, state and county incarceration to
            complete deportation proceedings. In our review of 151 A-files
            judgmentally selected from a universe of 15,653 criminal aliens
            in INS custody, we identified $1.1 million in detention costs due
            to failures in the IRP process within the INS’s control, and $1.2
            in detention costs arising from factors beyond the INS’s
            immediate control for a total of $2.3 million in IRP-related
            detention costs. Failures in the IRP process within INS’s control
            included (1) incomplete or inadequate casework; (2) untimely
            requests for travel documents; (3) failure to accommodate for
            delays in the hearing process; (4) failure to timely initiate and
            complete IRP casework; and (5) the use of inappropriate
            removal procedures. Factors beyond the INS’s direct control,
            included countries that, through design or incompetence, delay
            the issuance of travel documents and countries that refuse to
            take back their citizens.

       According to INS statistics, the average daily population for criminal
aliens held in INS custody was over 10,000 in FY 2001, accounting for over
half of the INS’s available bed space. The INS indicated that the
overwhelming majority of these criminal aliens were federal, state, or local
inmates that were released into INS custody for removal. Under ideal
conditions, an effectively operating IRP would preclude the need for INS
detention in such instances. Based on this unaudited data, total IRP-related
detention costs could run as high as $200 million annually.

Analysis of Detention Costs

      In order to determine the causes for IRP-related detention costs, we
                                11
reviewed a judgmental sample of 151 A-files of criminal aliens released
from federal, state and local correctional facilities throughout the country.
In addition, we interviewed INS officials at all levels, as well as officials at
the EOIR, the GAO, and the Department of State. Our review of the IRP
       11
          The judgmental sample was selected from a combined listing of aliens in INS
custody as of July 19, 2001 and October 9, 2001. Our sample was comprised of criminal
aliens, defined as all aliens legally or illegally residing in the United States who have been
convicted of a crime for which they could be deported. The sample was chosen to represent
a cross-section of criminal aliens in INS custody based on location, nature of crime, and
nationality.


                                           - 21 -
process revealed a number of causes for detention costs incurred related to
the failure of the IRP to effect removal of criminal aliens upon their release
from incarceration. The causes underlying the $2.3 million in detention
costs we calculated included factors both within and beyond the INS’s direct
control, as shown in the table below. There were also some factors over
which the INS had some control but was dependent upon the cooperation of
outside agencies to effect change, such as the hearing process and the
timely issuance of travel documents.



                 SUMMARY OF DETENTION COSTS FOR A-FILES REVIEWED


                                                Number of        Average
                                                Instances        Days of     Detention
                                                                                   13
      Causes for Delays                         Occurring        Detention    Costs
                                                       12


      Within the INS’s Control
            Incomplete/Inadequate                           12          51   $    36,073
      Casework
            Travel Documents                                66          67       260,123
            The Hearing Process                             85         144       716,716
            Failure to Initiate IRP                         10          36        20,964
            Inappropriate Removal Procedure                  7         153        62,893
                Subtotal                                                     $1,096,76
                                                                                      9
      Beyond the INS’s Direct Control
            Travel Documents                                21         279   $   342,517
            Non-Repatriation Countries                      28         523       858,197
                Subtotal                                                     $1,200,71
                                                                                     4
      TOTAL                                                                  $2,297,48
                                                                                     3

       12
         Delays in some cases were attributed to multiple causes, and as such some cases
may be reflected in more than one category. However, each day of an alien’s time in INS
custody was attributed to only one specific cause, i.e. each detention day was counted only
once.
       13
          The total number of days was based on the date the INS took custody ("book-in'')
of the criminal alien, up to but not including the date of removal. If removal was not
accomplished as of our fieldwork date, the fieldwork date was used as the ending date. To
calculate detention cost, we used the average jail day rate of $58.56, which was based on
INS jail day rates for contract and local facilities INS-wide.


                                              - 22 -
Source:   A-File Review




                          - 23 -
Factors Within the INS’s Control

       Incomplete/Inadequate Casework

       Our analysis of the selected A-files revealed that approximately
$36,073 of IRP-related detention costs resulted from poor file maintenance
or incomplete preparation of IRP documents. D&R division officials
responsible for the actual removal of criminal aliens confirmed that the
organization and processing of IRP-related documents maintained in the A-
files needs to be improved. Processing deficiencies included primary
documents, such as photographs, fingerprints and conviction records,
missing from case files. In addition, INS forms, such as the I-213, which is
used to document the initial interview with the alien, were sometimes not
properly authorized.

      Incomplete or inadequate casework was of particular concern in the
INS Western Region, where D&R officials estimated that at least 20 percent
of the criminal aliens processed through the IRP had to be re-interviewed
because the alien’s identity was not accurately confirmed at the front-end of
the process. After completing the initial interview, INS agents must perform
database checks to confirm the identity of the criminal alien. However, in at
least one district sub-office in California, database checks were not
performed by an immigration agent, but rather were delegated to untrained
personnel, who had not been involved in the initial face-to-face interview of
the criminal alien. We believe this may have contributed to the breakdowns
in the process. D&R division officials surmised that the untrained personnel
were accepting the first alien name listed after conducting a name search on
the DACS and/or CIS database systems, and as a result may not have
correctly identified the criminal alien in question

       Travel Documents
                                                         14
      Delays in the receipt of travel documents result from factors both
within and beyond the INS’s direct control. With regard to factors within the
INS’s control, we determined that the INS failed to request travel documents
from countries of origin within a reasonable period of time, even when a
criminal alien's removal was approved prior to the INS taking custody. For
the majority of the A-files we reviewed, the INS had requested travel
documents only after the criminal alien completed serving his prison
sentence and had been released into INS custody. The D&R division was
primarily responsible for requesting travel documents from embassies or
consulates. Our review found that the criminal aliens in question were in

       14
           Travel documents refer to written authorization obtained from the alien's country
of origin that grants the INS permission to deport the alien back to his or her native
country.


                                           - 24 -
INS custody an average of 67 days before the INS initiated a request for
travel documents, resulting in detention costs of $260,123. INS officials at
the exit conference explained that the documentation in the A-files might not
fully reflect the actions being taken by INS officers prior to submitting a
request for travel documents, such as obtaining a valid passport from the
alien’s country of origin, and other necessary documentation. If delays in
obtaining travel documents were unavoidable, then it would be incumbent
upon the INS to anticipate and plan for these delays, to the extent possible,
by initiating requests for travel documents prior to the alien’s release into
INS custody.

      The Hearing Process

       We noted detention costs of $716,716 resulting from failures to
accommodate for the delays inherent in the hearing process. From the filing
of the notice to appear with the EOIR, to the signing of the removal order by
an immigration judge, the hearing process may take anywhere from two
weeks to two months, or longer. Legal residents or asylum applicants, for
example, would be expected to contest a removal order, and therefore a
protracted hearing process would be expected. In order to avoid excessive
detention time, the INS needs to anticipate such expected delays and
accommodate them by bringing the EOIR into the process at the earliest
date possible. INS officials in California commented that early preparation
was not always possible because it was sometimes difficult for a criminal
alien’s attorney to get access to the inmate while serving time at the state
level. The EOIR agreed that California was less than cooperative on IRP-
related issues, such as prison access, relative to the other large states, such
as New York and, in particular, Florida. With regard to the IRP at the state
level, the relationship between the INS, the EOIR, and Florida appears to be
a model practice. EOIR officials indicated that this was due in large part to
the cooperative efforts of the Florida state government with regard to
removing incarcerated criminal aliens. This was confirmed in our review,
which found that fewer process-related delays occurred in Florida than
elsewhere.

      Failure to Timely Initiate the IRP Process

      Although the goal of the IRP is to complete necessary removal
proceedings prior to the end of the criminal alien's sentence, we found that
for ten of the criminal aliens in our sample, the INS failed to initiate and
complete IRP casework during incarceration, resulting in $20,964 in
detention costs incurred by the INS. In some cases, IRP processing did not
begin until the criminal alien was released into INS custody from federal,
state or local authorities, which defeats the purpose of the program.




                                    - 25 -
       Inappropriate Removal Procedures

      Another factor affecting the timely removal of criminal aliens was the
use of inappropriate removal procedures. Depending on the immigration
status of the criminal alien, the type of removal proceedings may be one of
the following; administrative removal, reinstatement of a prior removal
order, or a hearing before an immigration judge (see Appendix II for a
description of the types of removal). Both the administrative removal and
reinstatement of prior removal orders are the result of streamlining efforts
established under the IIRIRA, both of which allow for the expedited removal
of certain criminal aliens without the need for formal hearings before an
immigration judge.

      We determined that in 7 of the 151 cases reviewed, the INS did not
use appropriate expedited removal proceedings. For example, criminal
aliens without legal status (illegal aliens), convicted of an aggravated felony
and sentenced to more than a year in prison, would be subject to an
administrative removal. However, we found that six illegal aliens, classified
as “Entry Without Inspection,” were issued a Notice to Appear (NTA),
affording them the opportunity to have their removal cases presented before
an immigration judge, when the aliens could have been processed for an
administrative removal, thereby avoiding the formal hearing process. In
addition, there was one case involving a criminal alien who should have been
removed based on a prior removal order (Reinstatement), but was afforded
an immigration hearing through issuance of a NTA. The additional detention
costs incurred by the INS for the seven cases reviewed resulting from
                                                                   15
improper or inappropriate removal proceedings totaled $62,893 .

Factors Beyond the INS’s Direct Control

      In addition to factors within the INS’s control, we determined
detention costs resulting from factors beyond the INS’s control totaling
$1,200,714 that included (1) countries that through design or incompetence
delay the issuance of travel documents and (2) deportable aliens from
certain countries (Cambodia, Cuba, Laos, and Vietnam) that refuse to
repatriate their citizens.

       Travel Documents

      While it is incumbent upon the INS to ensure that travel documents
are requested in a timely manner, the timely issuance of travel documents

       15
          The additional detention cost was based on the date the INS took custody of the
criminal alien up to but not including the date of removal, presuming that detention would
not have been necessary if INS had utilized the appropriate expedited removal proceeding.


                                          - 26 -
also depends upon the cooperation of state and local agencies on release
dates. As discussed in Finding 1, there is a need to elicit greater cooperation
on the part of state and local authorities with regard to the processing of
deportable criminal aliens. Because the window of validity on travel
documents is very brief, often not more than one day, INS officials cannot
request travel documents until they know the alien’s precise date of release.

      Given the uncertainty of scheduled release dates, and the lack of
access to timely information, INS officials usually must wait until the alien
has been released into INS custody before they can request travel
documents. This invariably results in the need to detain the criminal alien
while waiting for the travel document request to be processed. A precise
date, provided with sufficient lead-time, would significantly reduce the need
for additional detention in INS custody. Again, the millions of dollars in
SCAAP grants provides an opportunity for creating a more efficient IRP
process by requiring greater cooperation on the part of grant recipients.

      Clearly beyond the INS’s control is the issue of countries that through
design or incompetence delay the issuance of travel documents. In our
sample, we noted 19 cases involving delays by embassies or consulates to
INS requests for travel documents, resulting in $342,517 in detention costs.
INS officials stated that delays in the issuance of travel documents were
common in Caribbean countries, such as Jamaica, Haiti, Guyana, and the
Bahamas. Other countries identified as uncooperative in the timely issuance
of travel documents included Ethiopia, Nigeria, India, and China.

      Under Section 243(d) of the Immigration and Nationality Act, the
Attorney General may request that the Secretary of State discontinue
granting visas for countries that refuse to cooperate in the issuance of travel
documents. The Department of Justice has had recent success in Guyana in
obtaining the timely issuance of travel documents as a result of the
provisions of Section 243(d). However, greater coordination and
cooperation between the INS and the Department of State is needed to
overcome the difficulties faced by the INS in dealing with foreign
governments.

      Currently, the INS has only informal liaisons with the Department of
State concerning travel documents and other issues. INS officials have
expressed an interest in establishing more formal relations with the
Department of State. Specifically, INS and Department of State officials
have discussed plans to detail INS personnel on a permanent basis to the
Department of State in order to more effectively coordinate on immigration
matters, such as, the timely removal of criminal aliens.




                                    - 27 -
       Non-Repatriation Countries

      A total of $858,197, or 38 percent of the detention costs identified in
our sample, were attributed to long-term detention costs incurred to detain
criminal aliens from countries that refuse to take back their citizens. The
United States currently has no formal arrangements with the governments of
Cambodia, Cuba, Laos, and Vietnam concerning the repatriation of citizens
convicted of criminal acts in the United States. The INS has had to detain
indefinitely criminal aliens from these countries released into its custody. As
shown in the graph below, criminal aliens from these four countries comprise
just over 20 percent of the total criminal aliens in INS custody. Long-term
detention for these criminal aliens is counted in years, rather than days, with
some detainees going back to the early 1980’s. The cost of detaining
criminal aliens from these countries alone runs into millions of dollars
annually.



                                        NON-REPATRIATION COUNTRIES
                            Percentage of Total Criminal Aliens (15,653) in INS Custody
                             based on Combined DACS Runs (July & October 2001)




                                                             1.3%
                                 4.5%


                     2.1%




                                                                              14.7%




                                    Cambodia        Cuba      Laos      Vietnam


                      Source: DACs runs (July and October 2001)



                                                                  16
     While a recent Supreme Court decision has alleviated, to some
extent, the INS’s long-term detention problem, the decision is hardly a
       16
           The United States Supreme Court in June 2001, in its decision (Attorney General
v. Kim Ho Ma) held that the federal government is prohibited from detaining deportable
immigrants indefinitely after they have served out their sentences, if their own countries
refuse to take them back. The INS has held these ex-convicts in detention centers and local
jails, sometimes for years, while trying to deport them. In its decision, the Court said such
ex-convicts could not be held for more than six months if their deportation did not seem
likely in the "reasonably foreseeable future" and the government failed to present
compelling evidence for holding them.


                                                   - 28 -
solution, as these deportable criminal aliens are now being released into the
community. The Attorney General has expressed an interest in bringing
diplomatic pressure to bear on countries (such as the aforementioned) that
refuse to accept deportation of their citizens after they are convicted of
crimes in the United States. For its part the INS needs to better track and
report on the impact of non-repatriation in terms of resources expended with
regard to long-term detention, and in terms of public safety with regard to
recidivist crimes committed by long-term criminal detainees released from
INS custody as a result of the Supreme Court ruling.

Conclusion

       Based on our review of only 151 criminal alien A-files, we identified
$2.3 million in IRP-related detention costs which included $1.1 million
attributed to factors within the INS’s direct control and $1.2 million to
factors beyond their control. While we are unable to statistically project the
results of our judgmental sample, total IRP-related detention costs could run
staggeringly high, as much as $200 million annually, given that the average
daily population for criminal aliens held in INS custody was over 10,000 in
FY 2001, and that the INS indicated that the overwhelming majority of these
criminal aliens were federal, state, or local inmates that were released into
INS custody for removal. An effective IRP, under ideal conditions, would
preclude the need for detention of criminal aliens released into INS custody.
Conversely, an ineffective IRP creates the need for additional detention
space and consumes resources that could be put to better use. The
obstacles blocking the path to a fully unfettered IRP process are myriad,
involving factors both within and beyond the INS’s direct control. They
include the failure on the part of the INS to properly train and supervise
individuals performing IRP activities to ensure that the work is competent,
consistent, and completed in a timely manner, and coordinate with state and
local agencies, as well as federal agencies, such as the Department of State,
to streamline the IRP process to the extent possible.




                                    - 29 -
Recommendations

We recommend that the INS Commissioner:

5.   Develop and implement clear, consistent, and standardized procedures
     for IRP documentation and A-file organization to enhance efficiency
     and minimize detention costs.

6.   Ensure that INS officers make use of streamlined procedures for
     removal as authorized under the 1996 Act to minimize detention costs.

7.   Develop and implement, in coordination with the Department of State,
     a Memorandum of Understanding outlining the role of liaisons between
     the INS and the Department of State. This should include the
     delineation of responsibilities with respect to the timely issuance of
     travel documents.




                                  - 30 -
                SCHEDULE OF DOLLAR-RELATED FINDINGS


     FUNDS TO BETTER USE:                           AMOUNT             PAGE



Detention of Deportable Criminal
Aliens Released from Federal, State,
and Local Correctional Facilities

     Within the INS’s Control                 $1.1 Million               21

     Beyond the INS’s Direct Control          $1.2 Million               21

     Total                                    $2.3 Million               21




FUNDS TO BETTER USE are defined as future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.




                                        - 31 -
   STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      The audit of the INS's administration of the IRP process was conducted
in accordance with generally accepted government auditing standards.

       As required by the standards, we tested selected transactions and
records to obtain reasonable assurance about the INS's compliance with laws
and regulations that, if not complied with, we believe could have a material
effect on operations. Compliance with laws and regulations applicable to the
IRP process is the responsibility of INS management.

      An audit includes examining, on a test basis, evidence about laws and
regulation. The specific requirements for which we conducted tests are
contained in the Unites Sates Code, Title 8, Sections §1226, §1228, §1229a,
and §1231 concerning the removal of criminal aliens.

      Except for those issues discussed in the Findings and
Recommendations section this report, nothing came to our attention that
causes us to believe that INS management was not in compliance with the
sections of the United States Code cited above.




                                   - 32 -
                                                                 APPENDIX I

           AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The purpose of the audit was to evaluate the effectiveness of the IRP
in achieving the timely removal of aliens in accordance with the laws. The
objectives were to determine: (1) the effectiveness of INS’s management of
the IRP and, in particular, how well the INS managed the IRP with regard to
the impact of the 1996 legislated changes in immigration law on the IRP
workload; (2) whether the INS identified all foreign-born inmates in state or
local custody, and whether deportable criminal aliens not identified by the
INS went on to commit other crimes after release from incarceration; and
(3) the costs incurred by the INS for the detention of criminal aliens due to
failures in the IRP process and the reasons thereof.

Scope

      The scope of the audit encompassed IRP activities during fiscal years
1999 through 2001. Our primary focus was on IRP activities at the state
and local level, for which primary fieldwork was conducted in California and
Florida and included site work at INS offices, as well as state and local
correctional agencies.

Methodology

      To complete the audit, we (1) reviewed applicable laws, policies,
regulations, manuals, and memoranda; (2) interviewed officials at the INS,
the EOIR, the GAO, and the Department of State; (3) reviewed state and
county IRP operations in California and Florida, representing nearly half of
the total known incarcerated foreign-born population in the United States;
(4) judgmentally selected and reviewed a total of 746 case files as follows:
545 case files of inmates in state prisons and county jails in California and
Florida, 151 INS A-files of criminal aliens in INS custody, and 50 INS A-files
from the Western File Center in El Centro, CA; and (5) conducted fieldwork
at INS Headquarters in Washington, DC; INS district and sub-offices in Los
Angeles, CA; Phoenix, AZ; San Diego, CA; San Francisco, CA; Fresno CA;
Bakersfield, CA; Miami, FL; the INS Western Regional Office in Laguna
Niguel, CA; and the Western File Center and INS Processing Center in El
Centro, CA.

       For objective 1, we interviewed INS officials and analyzed data
obtained from county law enforcement agencies in California and Florida to
try to determine how well INS management handled the impact of the 1996
legislated changes in immigration law on the IRP workload.


                                    - 33 -
       For objective 2, we tested for recidivism on the part of foreign-born
inmates released into the community from state and local custody. We
obtained data on foreign-born inmates who were released from state and
local custody in June 1999 to determine whether the INS had performed IRP
interviews, and to determine whether deportable criminal aliens who were
not identified had committed additional crimes after being released. We
selected June 1999 in order to provide an adequate passage of time to test
for recidivism.

       For objective 3, we judgmentally selected 151 A-files for review from a
listing of aliens detained in INS custody as of July 19, 2001 and October 9,
2001. We combined the two data runs and eliminated duplicate names and
non-criminal aliens. The resulting report was analyzed for purposes of
selecting a judgmental sample of A-files that would represent a cross-section
of criminal aliens released into INS custody from federal, state, and local
correctional facilities, based on location, nature of crime, and nationality.
Calculation of detention costs was based on the number of days in detention
and the average jail day rate of $58.56, which was based on INS jail day
rates for contract and local facilities INS-wide.




                                    - 34 -
                                                               APPENDIX II

              CRIMINAL ALIENS: THE REMOVAL PROCESS

      The removal process involves four phases: identification and
processing, case preparation, administrative proceedings, and removal.
Aliens convicted of committing an aggravated felony are subject to removal.
Depending on the immigration status of the criminal alien, the type of
removal proceedings may be one of the following: administrative,
reinstatement of a prior removal order, or a hearing before an immigration
judge.

      Administrative Removal: Under section 238(b) of the Act, no relief
from removal exists once a case meets the criteria for administrative
removal proceedings. Upon initiation of the proceedings, the criteria include
that the individual must be an alien who is not a lawful permanent resident
(LPR) and the individual must have a final conviction for an aggravated
felony. When processing the alien for this procedure, each of these
elements as well as the alien's identity must be established.

1.   Establish alienage. An alien is any person who is not a citizen or
     national of the United States. In determining if a person is an alien,
     the INS officer (i.e. Immigration & Special Agent) must consider place
     of birth, the nationality of the person's parents at birth, and/or
     subsequent naturalization by the person or his parents. Those items
     that would cause an individual to be an alien must be explored during
     questioning. If the facts indicate that the person is an alien, they must
     be documented in a Record of Deportable/Inadmissible Alien (Form I-
     213), sworn statement, and printouts of records checks. The time and
     date that the alien was questioned should be noted on the Form I-213,
     and this evidence must be placed in the record of proceeding (ROP).

2.   Verifying immigration status (not a LPR). In order to establish the
     alien's immigration status at the time the process begins, the alien
     must be interviewed and all pertinent INS records systems should be
     checked. All evidence collected must be placed in the ROP. The Form
     I-213, sworn statement, printouts of records checks, i.e. CIS, DACS, &
     ENFORCE systems, should be used as evidence that the alien is not a
     LPR. Evidence of LPR status is available both on INS automated record
     systems and hard copy A-files.

3.   Establishing conviction of an aggravated felony. The record of
     conviction must be placed in the ROP. The types of documentary
     evidence constituting proof of conviction in immigration proceedings
     include the following:



                                    - 35 -
     a.    A record of judgment and conviction;

     b.    A record of plea, verdict and sentence;

     c.    A docket entry from court records that indicates the existence of
           a conviction;

     d.    Minutes of a court proceeding or a transcript of a hearing that
           indicates the existence of a conviction;

     e.    An abstract of a record of conviction prepared by the court in
           which the conviction was entered, or by a state official
           associated with the state's repository of criminal justice records,
           that indicates the following: the charge or section of law
           violated, the disposition of the case, the existence and date of
           conviction, and the sentence; or

     f.    Any document or record prepared by, or under the direction of,
           the court in which the conviction was entered that indicates the
           existence of a conviction.

4.   Verifying identity. When questioning the alien and checking records
     and documents to determine whether the case meets the criteria for
     administrative removal, special care must be taken to verify his
     identity. The encountering officer is responsible for making absolutely
     certain that all information is completely consistent and there is no
     question whatsoever about the identity of the person or upon whom
     the Notice of Intent to Issue a Final Administrative Removal Order
     (NOI) will be served.

     The law specifically requires a determination for the record that the
     individual upon whom the NOI is served is, in fact, the alien named in
     the NOI. When the NOI is served in person, the INS officer serving the
     NOI verifies the identity of the person on whom it is served, and signs
     a statement to that effect in the Certificate of INS on the NOI.

     The NOI shall set forth the preliminary determinations and inform the
     alien of the INS’s intent to issue a Form I-851-A, Final Administrative
     Removal Order, without a hearing before an immigration judge. The
     NOI shall constitute the charging document. The NOI shall include
     allegations of fact and conclusions of law. It shall advise the alien has
     the privilege of being represented at no expense to the government by
     counsel of the alien's choosing, as long as counsel is authorized to
     practice removal proceedings; may request withholding of removal to
     a particular country if he or she fears persecution or torture in that
     country; may inspect the evidence supporting the NOI; may rebut the


                                   - 36 -
     charges within 10 calendar days after INS of such Notice (or 13
     calendar days if Notice was by mail).

     A detainer should be served on the appropriate authorities at the
     correctional facility after the INS officer verifies the identity and
     immigration status of a criminal alien amenable to removal.

     Review for legal sufficiency. INS attorneys are available to provide
     advice regarding all aspects of cases being processed under Section
     238(b) of the Act. Cases must be reviewed for legal sufficiency in
     accordance with outstanding instructions.

     Executing final removal order of deciding INS officer: Upon the
     issuance of a Final Administrative Order, the INS shall issue a Warrant
     of Removal and be executed no sooner than 14 calendar days after the
     date the Final Administrative Removal Order is issued, unless the alien
     knowingly, voluntarily, and in writing waives the 14-day period at the
     time of issuance of the NOI or at any time thereafter and up to the
     time the alien becomes the subject of a Warrant of Removal. The
     warrant is served when the alien is released to the INS. The alien is
     taken into custody under the authority of a Warrant of Arrest issued by
     a deciding INS Officer (District Director, Assistant District Director for
     Deportation, IRP Director).

5.   Determining applicability of withholding of removal. While no relief
     from removal is available in these proceedings, cases may arise in
     which removal to a particular country must be withheld under Article 3
     of the Convention Against Torture and Other Cruel, Inhuman, or
     Degrading Treatment or Punishment (CAT). However, an alien
     sentenced to an aggregate term of imprisonment of at least five years
     for his aggravated felony conviction(s) is considered to have
     committed a particularly serious crime and statutorily ineligible for
     withholding of removal. In addition, Article 3 of the CAT prohibits an
     alien's removal to a country where he or she is more likely than not to
     be tortured. There are no exceptions to this prohibition. Therefore, an
     alien with an aggravated felony conviction(s) may be entitled to
     protection under Article 3, even if he or she has been sentenced to five
     or more years' imprisonment.

6.   Determining applicability of a waiver under Section 212(h) of the Act.
     An alien in administrative removal proceedings under section 238(b) of
     the INA is ineligible to apply for any discretionary relief. However, the
     Board of Immigration Appeals held that an alien not previously
     admitted to the United States as a LPR is statutorily eligible to seek a
     section 212(h) waiver despite an aggravated felony conviction. Based
     on this decision, a NTA must be served on the alien to begin removal


                                    - 37 -
proceedings before an immigration judge (see Section on Hearings
Before an immigration judge).

Reinstatement of Final Orders: Section 241(a)(5) of the Act
provides that the Attorney General will reinstate (without referral to an
immigration court) a final order against an alien who illegally reenters
the United States after being deported, excluded, or removed from the
United States under a final order. Before reinstating a prior order, the
officer (Immigration or Special Agent) processing the case must
determine:

A.    that the alien believed to have reentered illegally was previously
      deported or removed from the United States. The processing
      officer must obtain the alien's A-file or copies of the documents
      contained therein to verify that the alien was subject to a final
      order and that the previous order was executed.

B.    that the alien believed to have reentered illegally is the same
      alien as the one previously removed. If, in questioning an alien,
      he or she admits to being previously deported or removed, the
      Form I-213 and the sworn statement must so indicate. If a
      record check or fingerprint hit reveals such prior adverse action,
      that information must be included in the INS file. The alien
      should be questioned and confronted with any relevant adverse
      information from the A-file, record check or fingerprint hit, and
      such information must be included in the I-213 and sworn
      statement, if applicable.

      If the alien disputes the fact that he or she was previously
      removed, a comparison of the alien's fingerprints with those in
      the A-file documenting the previous removal must be completed
      to document positively the alien's identity. The Forensic
      Document Laboratory via photo phone or a locally available
      expert must complete the fingerprint comparison.

C.    that the alien did in fact illegally reenter the United States. In
      making this determination, the officer shall consider all relevant
      evidence, including statements made by the alien and any
      evidence in the alien's possession. The immigration officer shall
      attempt to verify an alien's claim, if any, that he or she was
      lawfully admitted, which shall include check of INS data systems
      available to the officer.

      In any case in which the officer is not able to satisfactorily
      establish the preceding facts, the previous order cannot be
      reinstated, and the alien must be processed for removal through


                              - 38 -
other applicable proceedings, such as administrative removal
under section 238 of the Act, or removal proceedings before an
immigration judge under section 240 of the Act.

In all cases in which an order may be reinstated, the officer must
create a record of sworn statement. The record of sworn
statement will document admissions, if any, relevant to
determining whether the alien is subject to reinstatement, and
whether the alien expressed a fear of persecution or torture if
returned on the reinstated order.

In addition to covering the normal elements (identity, alienage,
and the required elements listed above), the sworn statement
must include the following question and the alien's response
thereto: "Do you have any fear of persecution or torture should
you be removed from the United States?" If the alien refuses to
provide a sworn statement, the record should so indicate. An
alien's refusal to execute a sworn statement does not preclude
the INS from reinstating a prior order, provided that the record
establishes that all of the required elements discussed in the
above paragraphs have been satisfied. If the alien refuses to
give a sworn statement, the processing officer must record
whatever information the alien orally provided that relates to
reinstatement of the order or to any claim of possible
persecution.

Once the processing officer is satisfied that the alien has been
clearly identified and is subject to the reinstatement provision
(and the sworn statement has been taken), the officer shall
prepare Form I-871, Notice of Intent/Decision to Reinstate Prior
Order. The processing officer completes and signs the top
portion of the form, provides a copy to the alien, and retains a
copy for the file. The officer must read, or have read the notice
to the alien in a language the alien understands. The alien signs
the second box of the file copy and indicates whether he intends
to rebut the officer's determination. In the event that the alien
declines to sign the form, the officer shall note the block that a
copy of the form was provided, but that the alien declined to
acknowledge receipt or provide any response. If the alien
provides a response, the officer shall review the information
provided and promptly determine whether reevaluation of the
decision or further investigation is warranted. In not, or if no




                        - 39 -
additional information is provided, the officer shall proceed with
reinstatement based on the information already available.

Review for legal sufficiency. INS attorneys are available to
provide advice regarding all aspects of cases being processed
under Section 241a of the Act. Cases must be reviewed for legal
sufficiency in accordance with outstanding instructions.

If, after considering the alien's response the processing officer is
satisfied that the alien's prior order should be reinstated, the
processing officer presents the Form I-871 and all relevant
evidence to a deciding officer for review and signature at the
bottom of the form. A deciding officer is any officer authorized
to issue a Notice to Appear, i.e. District Directors, Assistant
District Director for Investigations, Officers-In-Charge, IHP
Directors.

After the deciding officer signs the Form I-871 reinstating the
prior order, the INS shall issue a new Warrant of Removal, Form
I-205, in accordance with 8 CFR 241.2. The officer should
indicate on the I-205 in the section reserved for provisions of law
that removal is pursuant to section 241(a)(5) of the Act as
amended by the IIRIRA.

At the time of removal, the officer executing the reinstated final
order must photograph the alien and obtain a classifiable rolled
print of the alien's right index finger on the I-205. The alien and
the officer taking the print must sign in the spaces provided.
Once the final order has been executed, it must be attached to a
copy of the previously executed documents, which establish the
prior departure or removal. The officer executing the reinstated
order must also serve the alien with a notice of penalties on
Form I-294. The penalty period commences on the date the
reinstated order is executed. Since this is his or her second (or
subsequent) removal, the alien is subject to the 20-year bar,
unless the alien is also an aggravated felon, in which case the
lifetime bar applies. The officer should route the I-205 and a
copy of the I-294 to the A-file. A comparison of the photographs
and fingerprints between the original I-205 and the second I-205
executed at the time of reinstatement may prove essential in the
event the reinstatement order is questioned at a later date.

     Removal Hearing before an immigration judge
(Section 240 of the Act): There are three circumstances
whereby a removal hearing may be initiated before an
immigration judge:


                         - 40 -
              (1) If a Deciding INS Officer (District Directors, Assistant District
              Director for Investigations, IRP Director) finds that the record of
              proceeding, including the alien's timely rebuttal, raises a genuine
              issue of material fact regarding the preliminary findings of an
              alien who initially has been processed as an administrative
              removal, the deciding officer may issue a notice to appear to
              initiate removal proceeding under section 240 of the Act.

              (2) In general, all legal permanent residents are given the
              opportunity to present their case before an immigration judge.

              (3) Aliens who have entered without inspection (EWI) (section
              212 of the Act) are entitled to a removal hearing before an
                                  17
              immigration judge. To initiate a hearing before an immigration
              judge, written notice, referred to as a Notice to Appear (NTA) (I-
              862), is either given to the alien in person or by mail if personal
              INS is not practicable.

              The NTA will specify the following: the nature of the proceedings
              against the criminal alien, the legal authority under which the
              proceedings are conducted, the acts or conduct alleged to be in
              violation of law, the charges against the alien, and the statutory
              provisions alleged to have been violated. No hearing date may
              be scheduled earlier than ten days from the date of INS of the
              NTA (to allow sufficient time to obtain counsel and prepare for
              the hearing). The NTA includes a waiver, which the alien may
              execute in order to obtain an earlier hearing date.

              Prior to serving the NTA to an alien, the following steps must be
              taken in each case referred to an immigration judge for a
              removal hearing:

              1. Search for existing INS records in CIS, DACS, or other
                 appropriate automated systems. If an A-file exists, create a
                 temporary file. If a file does not exist, follow local district
                 procedures for creating an A-file.

              2. Complete Form I-213, Record of Inadmissible Alien.

              3. Complete Form I-826.

       17
           If the subject entered without inspection and was convicted of burglary, robbery,
theft, or a crime of violence, with a sentence of less than a year a Notice to Appear (I-862)
must be issued. If the sentence is over a year then a Notice of Intent to issue an
Administrative Removal (I-851) should be issued.


                                           - 41 -
            4. Complete applicable sections of Form I-214.

            5. Provide photograph and fingerprints (2 sets) of the alien.

            6. Review the A-file to ensure that necessary court records or
               other evidence needed for the hearing are available.

The INS Legal Division prepares a Transmittal Memorandum for filing the
NTA with the EOIR. The EOIR receives the transmittal memorandum and
schedules the case received on the Master Calendar. The hearings are
scheduled based on the institutional hearing site where the alien is
incarcerated. The hearings are scheduled from 30 to 60 days from the
receipt of the Transmittal Memorandum, depending on each site's hearing
schedule. The EOIR sends copies of the Master Calendar to the Legal
Division at the District Office. The Legal Division send notices of the hearing
date to the alien respondent and/or their attorney. The Master Calendar
hearing is held, and the alien respondent is advised by the immigration
judge of the removal charges, the respondent's rights in a removal
proceeding, and called upon to enter a plea. If, at the conclusion of the
proceeding, the alien is found removable and a final order of removal is
issued by the immigration judge, the A-File is forwarded by the Legal
Assistant of the Detention and Removals Operations for removal processing
following the completion of the criminal sentence to incarceration.

For a majority of removal hearings, more than one hearing may occur. The
respondent may contest removal and request additional time to prepare a
defense or secure representation. If the respondent contests removal, seeks
representation, or is granted a continuance for other reasons, another
hearing will be scheduled. A time period that may span from 30 to 60 days
elapses between hearings whether they are Master Calendar hearings,
subsequent Merit hearings, or Continuances.




                                    - 42 -
                                                                                  APPENDIX III

               ANALYSIS OF PRE AND POST IMMIGRATION LAWS

                 Expansion of the terms of Deportable Offense
                     Pre 1996                                                Post 1996
               (8 & 1251 pg 163)
(A) General crimes                                         (B) General crimes
    (i) Crimes of moral turpitude                              (i) Crimes of moral turpitude
        Any alien who—                                             Any alien who—
        (I)     is convicted of a crime involving                  (I) is convicted of a crime involving
                moral turpitude committed within                       moral turpitude committed within
                five years after the date of entry,                    five years (or 10 years in the case
                and                                                    of an alien provided lawful
                                                                       permanent resident status under
        (II)   either is sentenced to                                  section 1255 (j) of this title) after
               confinement or is confined                              the date of admission,
               therefore in a prison or
               correctional institution for one                    (II) is convicted of a crime for which
               year or longer, is deportable.                           sentence of one year or longer
                                                                        may be imposed is deportable.

   (ii) Multiple crime convictions

       Any alien who at any time after entry               (Same as the pre-1996 wording except in the
       convicted of two or more crimes involving           first sentence the word admission is
       moral turpitude, not arising out of a single        substituted for entry.)
       scheme of criminal misconduct,
       regardless of whether confined therefore
       and regardless of whether the convictions
       were in a single trial, is deportable.

   (iii) Aggravated felony                                 No change

       Any alien who at any time after entry
       convicted of an aggravated Felony at any
       time after entry is deportable.
   (iv) Waiver authorized                                  (Waiver authorized is re-designated as (iv).
                                                           The new (iv) is designated high-speed flight:
       Clauses (I), (ii), and (iii) shall not apply in     Any alien who is convicted of a violation of
       the case of an alien with respect to a              section 758 Title 18 (relating to high-speed
       criminal conviction if the alien subsequent         flight from an immigration checkpoint) is
       to the criminal conviction has been                 deportable (the wording for Waiver authorized
       granted a full and conditional pardon by            is unchanged except for Inclusion of iv).
       the President of the United States or by
       the Governor of any of the several States.




                                                  - 43 -
Pre 1996                                                 Post 1996
(B) Controlled substances                                Only change is the substitution of the word
    (i) Conviction                                       “entry” in place of “admission” in the first
                                                         sentence.
        Any alien who at any time after entry has
        been convicted of a violation of (or a
        conspiracy) or attempt to violate any law
        or regulation of a State, the United
        States, or a foreign country relating to a
        controlled substance (as defined in
        section 802 of Title 21 other than a single
        offense involving possession for one’s
        own use of 30 grams or less of marijuana,
        is deportable).
   (ii) Drug abusers and addicts                         No change.

       Any aliens who is, or at any time after
       entrance has been, a drug abuser or an
       addict is deportable.

(C) Certain firearms offenses                            Any alien who at anytime after admission is
                                                         convicted under any law of purchasing, selling
   Any alien who at any time after entry is              offering for sale exchanging, using owning,
   convicted under any law of purchasing,                possessing or carrying, or of attempting or
   selling, offering for sale, exchanging, using,        conspiring to purchase, sell, offer for sale,
   owning, possessing, or carrying in violation          exchange use, own, posses, or carry, any
   of any law, any weapon, part or accessory             weapon, part or accessory which is a firearm
   which is a firearm or destructive devise (as          or destructive device (as defined in section
   defined in section 921(a) of Title 18) is             921 (a) of Title 18) in violation of any law is
   deportable.                                           deportable.

(D) Miscellaneous crimes                                 No change

   Any alien who at any time has been
   convicted (the judgment on such conviction
   becoming final) of, or has been so convicted
   of a conspiracy to violate-

   (i) any offense under chapter 37 (relating to
       espionage), chapter 105 (relating to
       sabotage), or chapter 115 (relating to
       treason and sedition) of Title 18, for which
       a term of imprisonment of five or more
       years may be imposed;

   (ii) any offense under section 871 or 960 of
       Title 18

   (iii) a violation of any provision of the Military
        selective INS Act (50 U.S.C App. 451 et
        seq.) or the Trading With the Enemy Act
        (50 U.S.C. App 1 et seq.); or


                                                - 44 -
    (iv) a violation of section 1185 or 1328 of
         this title is deportable.
(E) Crimes of domestic, violence, stalking or
    violation of protection order, crimes against
    children, and
Not in pre-1996 law                                    (i) Domestic violence, stalking, and child
                                                       abuse

                                                       Any alien who at any time after admission is
                                                       convicted of a crime of domestic violence, a
                                                       crime of stalking, or a crime of child abuse,
                                                       child neglect, or child abandonment is
                                                       deportable. For purposes of this clause, the
                                                       term “crimes of domestic violence” means any
                                                       crime of violence (as defined in section 16 of
                                                       title 18) against a person committed by a
                                                       current or former spouse of the person, by an
                                                       individual with whom the person shares a
                                                       child in common, by an individual who is
                                                       cohabiting with or has cohabited with the
                                                       person as a spouse, by an individual similarly
                                                       situated to a spouse of the person under the
                                                       domestic or family violence laws of the
                                                       jurisdiction where the offense occurs, or by
                                                       any other individual against a person who is
                                                       protected from that individual’s acts under the
                                                       domestic or family violence laws of the United
                                                       States or any State, Indian tribal Government,
                                                       or unit of local government.
                                                       (ii) Violators of protection orders

                                                       Any alien who at any time after admission is
                                                       enjoined under a protection order issued by a
                                                       court and whom the court determines has
                                                       engaged in conduct that violates the portion of
                                                       a protection order that involves protection
                                                       against credible threats of violence, repeated
                                                       harassment, or bodily injury to the person or
                                                       the persons for whom the protection order
                                                       was issued is deportable. For purposes of this
                                                       clause, the term “protection order” means any
                                                       injunction issued for the purpose of preventing
                                                       violent or threatening acts of domestic
                                                       violence, including temporary or final order
                                                       issued by civil or criminal courts (other than
                                                       support or child custody orders or provisions)
                                                       whether obtained by filing an independent
                                                       action or as a pendente lite order in another
                                                       proceeding.




                                              - 45 -
Additional crimes designated as aggravated felony:
Prior to 1996 the number of crimes to be determined as aggravated felony (8 &1101 (43)) was
limited. The term “aggravated felony” refers to crimes of murder, any illicit trafficking in any
controlled substance…including any drug trafficking crime, or any illicit trafficking in any firearms or
destructive devices…relating to laundering of monetary instruments…or any crime of violence…for
which the term of imprisonment imposed…is at least 5 years, or any conspiracy to commit any such
act.”
After 1996 the term aggravated felony embraced the following (concepts are paraphrased for
clarity.) Those with an * contain an element of those crimes considered aggravated prior to 1996.
None of the pre-1996 aggravated felonies ceased to be aggravated after 1996.
*(A) Murder, rape, or sexual abuse of a minor
*(B) Illicit trafficking of controlled substance
*(C) Illicit trafficking in firearms or destructive devices
*(D) Laundering of monetary instruments
  (E) Activity regarding exploding devises and firearms
*(F) Crimes of violence with a prison sentence of at least one year
  (G) A theft offense (including receipt of stolen property) or burglary offense for which the term of
       imprisonment is at least one year
  (H) Crimes regarding ransom
  (I) Crimes regarding child pornography
  (J) Crimes regarding racketeer influenced corrupt organizations or gambling for which a sentence
      of one year imprisonment or more may be imposed
  (K) Offenses that relate (I) to the owning, controlling, managing or supervising of a prostitution
      business (ii) transportation for the purpose of prostitution (iii) maintaining persons in peonage,
      slavery or involuntary servitude
  (L) Crimes relating to (i) gathering or transmitting national defense information (ii) relating to
      undercover intelligence (iii)protecting the identity of undercover agents
  (M) Crimes of fraud which (i) results in a loss to the victim of $10,000 or more or (ii) results in a
       loss of $10,000 or more to the government
  (N) Offense related to alien smuggling, except the case of a first offense where the alien committed
       the offense for the purpose of assisting, abetting, or aiding only the aliens only the alien’s
       spouse, child, or parent (and no other individual)
  (O) Offense who was previously deported on the basis of a conviction for an offense described in
       another subparagraph of this paragraph
  (P) Offense (i) which is falsely making, forging, counterfeiting, mutilating, or altering a passport,
      (ii) the term of imprisonment is at least 12 months, except for first offense, where the offense
      was for the purpose of assisting, abetting and aiding only the aliens spouse child or parent (and
      no other individual)
  (Q) Failure to appear by a defendant for the INS of a sentence of an offense punishable by
       the imprisonment for a term of 5 years or more
  (R) Commercial bribery, counterfeiting, forgery, or trafficking in vehicle identification numbers
       for which the term of imprisonment is one year or more.
  (S) Obstruction of justice, perjury, subornation of perjury, or bribery of a witness where
       imprisonment is one year or more.
  (T) Failure to appear before a court to answer to or depose of a charge of a felony for which a
      sentence of 2 years imprisonment or more may be imposed.
  (U) An attempt or conspiracy to commit an offense described in this paragraph.
Auditor’s Notes: While there have been changes in many areas, the change in application of the moral turpitude clause has
the most potential in expanding the number of deportable aliens from pre 1996 to post 1996. The key is prior to 1996 the
moral turpitude crime had to have a sentence of one year or more. Post 1996 required only that the crime have a potential
prison term of one year or more. Whether the alien was given an actual sentence or served an actual sentence is no longer
required. Domestic violence clause may also have expanded the potential caseload. The number of crimes categorized as
aggravated felonies increased from 5 to 21. Equally significant is the waiver of the 5-year minimum sentence. Under the
1996 law only 7 (Crimes F, G, J, Q, R, T,) of the 21 had any time constraints and only 2 (Q and T) of the 7 had sentence
minimums greater than 1 year. The result is the potential number of IRP candidates at the local level is greater than prior to
1996.


                                                         - 46 -
         APPENDIX IV




- 47 -
- 48 -
- 49 -
- 50 -
                                                                APPENDIX V

        ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                        CLOSE REPORT


      The INS response to the audit (Appendix IV) describes the actions
taken or planned to implement our recommendations. This appendix
summarizes our response and the actions necessary to close the report.

Recommendation Number:

1.   Resolved. In its response the INS stated that it had conducted a
     partial resource review and that a complete review of resource
     requirements will begin in fiscal year 2003. In order to close this
     recommendation, please provide to the OIG the results of the review
     including total estimated incarcerated foreign-born populations, the
     resources required to fully address those populations, and the
     associated risks in not fulfilling total resource requirements.

2.   Resolved. In its response the INS stated that it had created a
     funding element within the Detention & Removal Office’s funding
     classification that will provide for the funding and tracking of resources
     expended for the IRP. In order to close this recommendation, please
     provide to the OIG the account classification codes established for
     tracking IRP funding and expenses.

3.   Resolved. In its response the INS stated that it had developed and is
     preparing to implement a multi-year plan to provide an expanded DEO
     position to staff the IRP. In order to close this recommendation,
     please provide to the OIG the plans for implementation, including the
     revised DEO position description, the number of positions to be
     dedicated to the IRP, and the estimated time frame for full
     implementation.

4.   Resolved. In its response the INS stated that it agreed with the
     recommendation, but indicated that it would not pursue changes to
     SCAAP provisions given that the funding for the initiative had not been
     included in the President’s Fiscal Year 2003 budget request. The OIG
     is aware of the status of SCAAP funding in the President’s budget
     request. The recommendation will remain open pending Congressional
     approval of the FY 2003 budget.




                                    - 51 -
5.   Resolved. In its response the INS stated that it would develop an
     operations manual and provide appropriate training to address
     problems concerning the consistency and quality of IRP casework. In
     order to close this recommendation, please provide to the OIG a copy
     of the operations manual and training syllabus.

6.   Resolved. In its response the INS stated that it would address the
     use of streamlined procedures for removal in its operations manual
     and training regimen. In order to close this recommendation, please
     provide to the OIG a copy of the operations manual and training
     syllabus.

7.   Resolved. In its response the INS stated that it placed a liaison
     officer in the State Department and that the officer would coordinate
     the MOU. In order to close this recommendation, please provide to
     the OIG a signed copy of the MOU.




                                  - 52 -
